<html>
<title> - PROPOSED BUDGET FOR FISCAL YEAR 2012 FOR THE NATIONAL PARK SERVICE</title>
<body><pre>[Senate Hearing 112-17]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-17
 
   PROPOSED BUDGET FOR FISCAL YEAR 2012 FOR THE NATIONAL PARK SERVICE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   TO

 CONSIDER THE PRESIDENT'S PROPOSED BUDGET FOR FISCAL YEAR 2012 FOR THE 
                         NATIONAL PARK SERVICE

                               __________

                             MARCH 30, 2011


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
66-492                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="80e7f0efc0e3f5f3f4e8e5ecf0aee3efedae">[email&#160;protected]</a>  

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            RAND PAUL, Kentucky
MARK UDALL, Colorado                 DANIEL COATS, Indiana
JEANNE SHAHEEN, New Hampshire        ROB PORTMAN, Ohio
AL FRANKEN, Minnesota                JOHN HOEVEN, North Dakota
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado, Chairman

MARY L. LANDRIEU, Louisiana          RICHARD BURR, North Carolina
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
DEBBIE STABENOW, Michigan            RAND PAUL, Kentucky
AL FRANKEN, Minnesota                DANIEL COATS, Indiana
ROBERT MENENDEZ, New Jersey          ROB PORTMAN, Ohio
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Burr, Hon. Richard, U.S. Senator From North Carolina.............     2
Jarvis, Jonathan B., Director, National Park Service.............     3
Udall, Hon. Mark, U.S. Senator From Colorado.....................     1

                                APPENDIX

Responses to additional questions................................    27


   PROPOSED BUDGET FOR FISCAL YEAR 2012 FOR THE NATIONAL PARK SERVICE

                              ----------                              


                       WEDNESDAY, MARCH 30, 2011

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Mark Udall 
presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. The Subcommittee on National Parks will come 
to order. The purpose of today's hearing is to consider the 
Administration's fiscal year 2012 proposed budget for the 
National Park Service. I'd like to welcome Jon Jarvis, the 
Director of the National Park Service, who will be testifying 
this afternoon and look forward to hearing from him in just a 
few moments.
    There's a lot of talk right now about what the appropriate 
funding levels should be for government agencies and programs 
in light of the Nation's long term budget problems. But we need 
to find ways to cut unnecessary spending and spend remaining 
funds more carefully. It's important to remember that 
discretionary budget cuts alone, accounting for only 12 percent 
of the Federal budget, will not achieve long term sustainable 
debt reduction.
    In light of the current fiscal situation and given the 
importance of preserving our Nation's natural, historical and 
cultural heritage, the Administration's proposed budget of $2.9 
billion in appropriated funds for the National Park Service is, 
in my view, a reasonable one. The budget proposes a slight 
increase in the Park Service's primary operating account with a 
recommended appropriation of about $2.3 billion an increase of 
$35.3 million or less than 1.6 percent over the current level.
    This year's budget seeks to implement the President's 
America's Great Outdoors initiative, which is designed to 
promote community based recreation and conservation and to get 
our youth engaged in outdoor activities. The National Park 
Service programs are a major part of the initiative, and the 
funding proposed in the budget will allow the Park Service to 
improve the visitor experience at our National Parks.
    The America's Great Outdoors initiative also includes full 
funding for the Land and Water Conservation Fund. LWCF, which 
is funded by receipts from offshore oil and gas development, 
has played a critical role across the country in protecting 
valuable resources while providing the means to enhance outdoor 
recreation opportunities. Even small acquisitions can have an 
important benefit for our communities. For example, one of the 
proposed LWCF projects in this year's budget is the purchase of 
approximately two and a half acres of land adjacent to Monument 
Canyon which is a popular destination for hikers and climbers 
in the Colorado National Monument.
    The tract would be used to address a critical shortage of 
parking for visitors. The current situation is creating a 
dangerous problem for visitors and the park, as visitors are 
parking along and then crossing the adjacent highway to get to 
a popular trail head.
    The Administration is also proposing significant funding 
increases for LWCF State grant programs, which provide 
important financial resources for States and communities for 
much needed local parks and recreational opportunities.
    I look forward to addressing these issues and others in 
more detail with Director Jarvis. But first I'd like to 
recognize our Ranking Member, Senator Burr, for his statement. 
He and I are both long term supporters of the Land and Water 
Conservation Fund. I look forward to working with him on trying 
to find ways to support this important program.

    STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Mr. Chairman, good afternoon and my thanks to 
you for convening this hearing before the National Park 
Subcommittee. It's our first hearing of the year. I very much 
look forward to another productive year in this subcommittee 
with you.
    I welcome Director Jarvis. We look forward to your 
testimony. I might say that parks, National Parks, are 
important to North Carolina since we possess the most visited 
National Park in the country. I think some would think that's 
in the West, but it's actually in the East. Parks are an 
important part of our national treasure.
    Director Jarvis, I look forward to hearing from you about 
the proposed 2010 budget and how the additional $137 million 
which is included in the proposed budget will impact various 
aspects of the Park Service. Particularly I'm interested, as 
you heard from Senator Udall, in the Land and Water 
Conservation Fund. The proposal to fully fund that initiative.
    We've both been long supporters of LWCF which is funded 
through a dedicated revenue stream from royalties of offshore 
oil and gas production or it's designed to be funded that way. 
You know, I think we've got our work cut out to do that. But 
there are success examples all around this country of the great 
work of the Land and Water Conservation Fund.
    On a matter of importance to North Carolina I've got to 
take the opportunity to express my support for a resolution to 
a long standing issue with Cape Hatteras National Seashores. I 
believe, as I believe the chairman does, that our parks are a 
treasure for the use of the American people. That that use 
should not be restricted in any way, shape or form. Not the 
case at the Cape Hatteras National Seashores.
    I believe that the American people understand how to 
protect a treasure. We can find balance. But to turn on or turn 
off is an injustice to the people that own it which are the 
citizens of this country.
    I wish that the courts had never gotten involved in this 
issue. I hope that the Interior Department will work with me to 
try to find a satisfactory resolution. If it won't I'll solicit 
the chairman's help to try to introduce legislation in the next 
several months that will dictate access that the American 
people have to this treasure. But hopefully with the right 
balance of protection of the resources that are there.
    So again, I thank you, Mr. Jarvis. Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Burr.
    Welcome Director Jarvis, Mr. Sheaffer, as well. The floor 
is yours. We look forward to your testimony.

   STATEMENT OF JONATHAN B. JARVIS, DIRECTOR, NATIONAL PARK 
    SERVICE; ACCOMPANIED BY C. BRUCE SHEAFFER, COMPTROLLER, 
                     NATIONAL PARK SERVICE

    Mr. Jarvis. Thank you, Mr. Chairman. Thank you, ranking 
member there, Senator Burr. Thank you very much for this 
opportunity to appear before you today at this oversight 
hearing on the fiscal year 2012 President's budget request for 
the National Park Service.
    If I may, Mr. Chairman, I'd like to summarize my testimony 
and submit the entire statement for the record. I'd also ask 
for your acceptance to have Comptroller Bruce Sheaffer here 
join me for answering questions.
    Senator Udall. Without objection.
    Mr. Jarvis. Thank you.
    We appreciate the subcommittee's support for the work we do 
as stewards of our Nation's cherished, natural and cultural 
resources. We look forward to continuing to work with you as 
the National Park Service prepares for our second century of 
stewardship beginning in 2016. As any resource manager can tell 
you why stewardship sometimes involves making very hard 
choices.
    The National Park Service's fiscal year 2012 budget request 
reflects a careful and serious response to the need to reduce 
Federal spending by supporting our highest priorities while 
also proposing significant reductions to a number of worthy 
programs. In addition to the program reductions the budget 
request also includes substantial management savings and 
efficiencies. By focusing available resources on the areas of 
greatest need, the National Park Service can maintain its 
existing responsibilities while supporting important new 
initiatives.
    The fiscal year 2012 budget proposes a total discretionary 
spending of $2.9 billion. This is a net increase of $137.8 
million above the fiscal year 2010 appropriation. The budget 
request includes an increase of $39.5 million at more 100 
parks. This amount is intended to address operations at new 
parks and other new responsibilities, improve mission critical 
operations, engage youth in employment and educational 
opportunities, protect historical assets at parks commemorating 
the Civil War sesquicentennial.
    Our operations budget is key to helping us continue to 
protect the critical, natural and cultural resources we are 
entrusted with. To serve park visitors who numbered last year, 
$281 million. Supporting America's Great Outdoors initiative 
which includes full funding of the Land and Water Conservation 
Fund programs at 900 million, the NPS budget request includes 
160 million to acquire over 98,000 acres of land within 
authorized units of the National Park system.
    The proposed acquisitions were determined through a 
coordinated process that the Department now uses to prioritize 
acquisitions among the 3 Department land management bureaus and 
the U.S. Forest Service. The criteria we use emphasize 
opportunities to jointly conserve important landscapes, 
especially rivers and riparian areas, wildlife habitat, urban 
areas that provide needed recreational opportunities and those 
containing important cultural and historical assets. We also 
look to the ability to leverage partner funds, the degree of 
involvement with other bureaus and the urgency for project 
completion.
    Also included in the NPS request for LWCF is $200 million 
for the State Conservation Grants. That would enable local 
communities to enhance outdoor recreational opportunities. A 
portion of these funds would be allocated through a competitive 
component targeted at community parks, green spaces, landscape 
level--landscape scale conservation and recreational waterways.
    These grants would address the public's concern about the 
lack of open space and outdoor recreational areas and certain 
urban and other areas that was frequently conveyed during the 
listening sessions we held for America's Great Outdoors. In 
conjunction with the State Conservation Grants, the request 
also includes an increase of $1.1 million for the National Park 
Service's Rivers, Trails and Conservation Assistance Program to 
bolster their technical assistance to communities that are 
working to increase and improve recreational opportunities and 
access.
    The fiscal year 2012 request maintains funding of $9.9 
million for the Secretary's Cooperative Landscape Conservation 
Initiative. This initiative will bring together networks of 
resource professionals promoting a science base understanding 
of the effects of climate change. This will produce practical 
applications that have broad benefits for resource managers 
seeking cost effective approaches to conservation in the face 
of economic challenges.
    In order to fulfill the service's stewardship 
responsibilities and sustain key initiatives the critical 
increases I have described are offset by a number of cost 
savings and program reductions. The proposed budget requests no 
funding for Save America's Treasures grants, Preserve America 
grants or the Park Partnership Projects program. The request 
also eliminates funding for statutory assistance and proposes 
significant reductions in the construction in the National 
Heritage Area programs. In addition the budget includes 
management savings and efficiencies totaling $46.2 million.
    Mr. Chairman, as I speak to you on the efforts of the 
National Park Service has taken to restrain spending I'd like 
to remind you of the important economic value of our National 
Parks. National Parks are drivers of economic growth 
particularly in gateway communities. They stimulate spending 
and job creation. Taxpayer investments in National Parks result 
in far more than the obvious recreational and educational 
dividends.
    In 2009 park visitors spent $11.9 billion and supported 
247,000 private sector jobs. Supporting the parks is not simply 
a matter of wise stewardship. It's also an economic investment 
in the future.
    Mr. Chairman, in closing I must say again and again, how 
much we appreciate the support, your support and the support of 
this committeefor the National Park Service. I look forward to 
working with you in meeting the challenges ahead. This 
concludes my summary. Be pleased to take any questions you may 
have.
    Thank you.
    [The prepared statement of Mr. Jarvis follows:]

   Prepared Statement of Jonathan B. Jarvis, Director, National Park 
                  Service, Department of the Interior

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today at this oversight hearing on the 
President's Fiscal Year 2012 proposed budget for the National Park 
Service. We appreciate your support for our stewardship of our nation's 
cherished natural and cultural resources and for the important 
educational and recreational opportunities we provide for the American 
people.

                              INTRODUCTION

    Responding to the need to reduce Federal spending in a difficult 
economic climate, the FY 2012 budget request for the NPS contains 
strategic spending increases combined with selected program reductions 
and eliminations, made only after serious and careful deliberation. The 
FY 2012 budget proposes total discretionary appropriations of $2.9 
billion and $394.5 million in mandatory appropriations for total budget 
authority of $3.3 billion. This is a net increase of $137.8 million 
above the FY 2010 discretionary appropriations and an estimated net 
decrease of $13.0 million in mandatory appropriations from FY 2010.
    National parks are drivers of economic growth, particularly in 
gateway communities. They stimulate spending and job creation. Taxpayer 
investments in national parks result in far more than the obvious 
recreational and educational dividends. In 2009, park visitors spent 
$11.9 billion and supported 247,000 private-sector jobs. The 
President's budget will ensure that national parks continue to serve 
about 280 million visitors who come every year to relax in America's 
great outdoors and learn about the people and places that make up 
America's story.
    The FY 2012 budget request supports continued stewardship of this 
Nation's most cherished resources through the Administration's 
America's Great Outdoors initiative--a landmark investment in engaging 
people, particularly youth, in America's outdoors and conserving our 
Nation's natural and cultural heritage. It also supports the 
Secretary's goals of cooperative landscape conservation and engaging 
America's youth in the great outdoors.

                             BUDGET SUMMARY

    The FY 2012 budget request reflects the President's commitment to 
our national parks with an increase of $276.6 million over the FY 2010 
enacted level, as part of the Administration's America's Great Outdoors 
initiative. A key component of this initiative is bolstering 
operational funding at park units that need it most. The budget 
requests an increase of $39.5 million for park operations at new parks, 
and to address new responsibilities, improve mission critical 
operations, engage youth in employment and educational opportunities, 
and protect historical assets at parks commemorating the Civil War 
sesquicentennial.
    Further supporting the America's Great Outdoors initiative, the NPS 
budget request plays a key role in the Administration's proposal to 
fully fund Land and Water Conservation Fund (LWCF) programs at $900 
million in FY 2012. The NPS request is critical to achieving the goals 
inherent in the LWCF Act of 1965, which was designed to use revenues 
generated through the depletion of natural resources for State and 
Federal land acquisition and the enhancement of lands and waters for 
recreational and conservation purposes. The request includes $160.0 
million for Federal Land Acquisition, an increase of $73.7 million from 
FY 2010, which would be used to leverage other Federal resources, along 
with those of non-Federal partners, to achieve shared conservation 
outcome goals in high-priority landscapes. The request also includes 
$200.0 million for the State Conservation Grants program, of which 
$117.0 million would be targeted to a new competitive matching grants 
program for States to create and enhance outdoor recreation 
opportunities.
    The FY 2012 request maintains NPS funding of $9.9 million for the 
Secretary's Cooperative Landscape Conservation initiative. This 
initiative will bring together natural resource professionals at the 
Federal, State, and local level through real and virtual connections to 
facilitate the wider sharing of information. These networks of resource 
professionals will be supported by science centers that translate 
global scientific understanding of environmental change into solutions 
at the landscape level. A science-based understanding of these issues 
and their practical applications will have broad benefits for resource 
managers that are wrestling with the need to find practical and cost-
effective approaches to conservation in the face of economic 
challenges. With this funding, resource monitoring will increase at 
more than 150 of the most vulnerable parks in high elevation, high 
latitude, arid, and coastal areas, such as monitoring for melting 
permafrost in Alaska and changes in salt marsh salinity along the South 
Atlantic coast. Additionally, over 500 employees will be trained to 
incorporate adaptation approaches into resource management.
    In order to uphold our stewardship responsibilities and sustain key 
initiatives, the National Park Service undertook a rigorous review of 
our ongoing activities and made difficult choices. The proposed budget 
eliminates funding for Save America's Treasures grants, Preserve 
America grants, and the Park Partnership Projects program. Further, the 
request eliminates funding for Statutory Assistance and proposes 
significant reductions in the NPS Construction and National Heritage 
Areas programs.
    In addition to the program reductions the budget includes 
management savings and efficiencies totaling $46.2 million, including 
$18.4 million that will be realized in 2011. The NPS will realize the 
remaining savings in 2012 by reducing $24.8 million in supplies and 
material, and $3.0 million in savings for travel and transportation of 
persons. In proposing the reductions and absorptions requested in the 
FY 2012 request, we have been careful to protect park operations as 
much as possible, and we continue to advance innovative approaches to 
collaboration and cost savings. The consolidation of our workforce 
management, acquisition, and contracting offices are prime examples of 
strategies that will, in future years, deliver greater services at less 
cost.
    I would also like to mention the significant progress we have made 
in responsibly reducing our unobligated balances. Over the past two 
years, we implemented a number of policy and program changes, including 
reducing retention percentages at larger fee-collecting parks if their 
unobligated balances exceeded 35 percent of gross revenue. The result 
has been a more efficient targeting of funds to where it's needed most 
for the benefit of park visitors and protecting resources. It has also 
allowed individual parks more independence in project selection and 
expedited the approval of small fee projects. The unobligated balance 
for this program was reduced from $218 million at the end of FY 2009 to 
$86 million on January 1, 2011.

                 OPERATION OF THE NATIONAL PARK SYSTEM

    The FY 2012 budget requests $2.3 billion for the ONPS, a 
programmatic increase of $72.9 million over the 2010 enacted level, but 
a net increase of $35.3 million. This includes $39.5 million for park 
base increases which would benefit over 100 parks. The funds would be 
used to sustain and improve the condition of cultural resources; 
provide for new areas and responsibilities; ensure the continuation and 
improvement of mission critical operations; engage youth; and work 
collaboratively with partners. These increases are also a critical 
component of addressing key goals of the Administration's America's 
Great Outdoors initiative and connecting the public to the Nation's 
natural and cultural heritage and treasures. Other major increases 
improve capacity to perform repair and rehabilitation of park assets 
($7.5 million), consolidate workforce management and acquisition 
offices ($6.8 million), increase baseline inventories of park cultural 
resources ($4.5 million), enhance cyclic maintenance efforts ($3.2 
million), expand security at park icons ($1.8 million), facilitate 
information sharing and resource protection of park cultural resources 
($1.5 million), and address oceans and coastal stewardship ($1.3 
million).
    The FY 2012 budget proposes a net increase of $5.7 million in 
support of the Secretary's Youth in the Great Outdoors initiative, 
which seeks to foster a life-long stewardship ethic in young people. 
The NPS is dedicated to engaging America's youth in developing a life-
long awareness of, and commitment to, our national parks, and we have 
proposed this investment in 27 parks as part of park base funding to 
establish youth programs that provide educational experiences and 
employment opportunities on a continuous basis. This increase builds 
upon the $13.5 million in youth employment and engagement programs that 
the NPS received in FY 2010 and the $4.4 million that was provided from 
recreational fee revenues to youth projects that benefit the visitor 
experience.

                 LAND ACQUISITION AND STATE ASSISTANCE

    The NPS FY 2012 budget proposes funding totaling $360.0 million for 
Federal land acquisition and State Conservation grants funded through 
the LWCF, an increase of $233.7 million from the FY 2010 enacted level. 
Of the total amount, $160.0 million is available for land acquisition 
projects and administration, including $10.0 million to provide grants 
to States and local communities to preserve and protect Civil War 
battlefield sites outside the national park system through the American 
Battlefield Protection Program.
    Beginning in FY 2011, the Department instituted a coordinated 
process for prioritizing Federal land acquisition projects among the 
three Departmental land management bureaus and the U.S. Forest Service. 
The cross-bureau criteria emphasize opportunities to jointly conserve 
important landscapes, especially river and riparian areas, wildlife 
habitat, urban areas that provide needed recreational opportunities, 
and those containing important cultural and historical assets. 
Additional criteria for these projects include the ability to leverage 
partner funds, the degree of involvement with other Interior bureaus 
for the project, and the urgency for project completion. The FY 2012 
land acquisition request totals over 98,800 acres of the highest 
priority landscapes, spanning the country from Alaska and Hawaii to 
Maine and Florida and the Virgin Islands. As required by law, the 
proposed tracts are located within authorized park boundaries.
    The request also provides $200.0 million, including administrative 
costs, for State Conservation Grants funded by the LWCF, a net increase 
of $160.0 million from the FY 2010 enacted level. Of this total, at 
least $78.0 million would be distributed equally to States as required 
by law, an increase of $40.8 million over the FY 2010 enacted level. 
With the remaining funds, the 2012 budget proposes developing a 
competitive component targeted at community parks and green spaces, 
landscape-scale conservation, and recreational waterways. These grants 
would address the public's concern about the lack of open space and 
outdoor recreational areas in certain urban and other areas that was 
frequently conveyed during listening sessions for the America's Great 
Outdoors initiative.
    The competitive component would fund ``signature projects'' that 
create more outdoor recreational opportunities and conserve open space 
where access to natural areas has been inhibited or is unavailable; 
protect, restore, and connect open space and natural landscapes; and 
provide access to waterways. The projects would be expected to be 
larger in scale and would likely require and receive greater amounts of 
funding than has typically been awarded. NPS estimates that 10 to 50 
grants could be funded to support acquisition of open spaces and 
natural areas and development of facilities for outdoor recreation 
across the Nation. Under the LWCF Act, a single State cannot receive 
more than 10 percent of total grant funds, so no State would receive 
more than $17.9 million under this proposal. Each State would continue 
to automatically receive an apportionment that would total 
approximately $1.5 million. Applications would be evaluated using 
standard LWCF State grant criteria, as well as new criteria, such as 
the project's ability to increase and improve recreational access or 
the use of science and mapping to identify valuable lands for wildlife 
conservation.

                  NATIONAL RECREATION AND PRESERVATION

    The National Recreation and Preservation appropriation funds 
programs that support local and community efforts to preserve natural 
and cultural resources. For FY 2012, $51.6 million is requested; a net 
decrease of $16.9 million from the FY 2010 enacted level. The request 
includes an increase of $1.1 million for the NPS Rivers, Trails, and 
Conservation Assistance program to bolster technical assistance to 
communities that are working to increase and improve recreational 
opportunities. As a key component of the Administration's America's 
Great Outdoors initiative, this increase would help provide an 
important resource to local communities as they work with States to 
implement projects funded from the proposed $200.0 million for the LWCF 
State Assistance program.
    The budget also includes a request of $2.0 million for the 
Chesapeake Bay Gateways and Water Trails grants program. This proposal 
reflects the Administration's continuing commitment to ecosystem 
restoration, including stewardship of the Chesapeake Bay, pursuant to 
Executive Order 13508. The funds would provide technical and financial 
assistance for conserving, restoring and interpreting natural, cultural 
and recreational resources within the Chesapeake Bay watershed.
    As noted above, the budget proposal provides $19 million in savings 
by not funding Statutory Assistance earmarks or Preserve America Grants 
and cutting in half Heritage Partnership Program grants to encourage 
self-sufficiency among well-established National Heritage Areas while 
continuing support for newer areas. These reductions are proposed to 
focus NPS resources on the highest priority needs within parks.

                       HISTORIC PRESERVATION FUND

    The NPS plays a vital role in preserving the Nation's cultural 
history through a variety of programs that address preservation needs 
nationwide. The FY 2012 request for the Historic Preservation Fund is 
$61.0 million, a decrease of $18.5 million from the FY 2010 enacted 
level. The FY 2012 budget provides an increase of $6.5 million, of 
which $3.5 million is for Grants-in-Aid to States and Territories and 
$3.0 million is for Grants-in-Aid to Tribes. The total budget request 
for HPF in FY 2012 is $50.0 million for Grants-in-Aid to States and 
Territories and $11.0 million for Grants-in-Aid to Tribes. These key 
increases were provided as part of the America's Great Outdoors 
initiative to support increased State and Tribal National Historic 
Preservation Act compliance requirements and an expected 25% increase 
in the number of Tribal Historic Preservation Offices between 2010 and 
2012. No funds are requested for the Save America's Treasures grants 
program in order to focus NPS resources on the highest priority needs 
within parks.

                              CONSTRUCTION

    The $152.1 million requested for Construction includes $70.3 
million for line-item construction projects. The line-item request, 
along with recreation fee revenues and park roads funding will provide 
substantial resources for protecting and maintaining existing park 
assets. Funding through the American Recovery and Reinvestment Act and 
previous appropriations has enabled the NPS to make significant gains 
in addressing outstanding construction projects. The NPS should 
complete all ARRA-funded construction projects in FY 2012. The request 
funds 14 projects including continuation of ecosystem restoration at 
Olympic and Everglades National Parks and critical new projects at Big 
Cypress National Preserve, the National Mall, and the Flight 93 
National Memorial. The budget proposes funding for the highest priority 
health and safety and mission-critical projects and does not propose 
funding for new facilities or deferred construction of replacement 
facilities. It also includes funding for the Great Smoky Mountains 
North Shore Road settlement agreement.

                        PERFORMANCE INTEGRATION

    In formulating the FY 2012 budget request, the NPS used a variety 
of tools to incorporate performance results into the decision-making 
process. These tools include the Budget Cost Projection Module, the 
Business Planning Initiative, and the NPS scorecard, as well as 
continued program evaluations. These tools are used to develop a more 
consistent approach to integrating budget and performance across NPS, 
as well as to support further accountability for budget performance 
integration at all levels of the organization. Given the far-reaching 
responsibilities of the NPS, we must remain strategic in our thinking 
and decision-making.
    Mr. Chairman, this concludes my summary of the FY 2012 budget 
request for the National Park Service. We would be pleased to answer 
any questions you or the other members of the subcommittee may have.

    Senator Udall. Thank you, Director Jarvis for that 
important statement, for that focus on jobs and the economy. 
Those are truly important numbers both in terms of revenues, as 
well as jobs created and maintained. I also thank you for the 
succinctness of your summary so we have time for some questions 
and commentary.
    Let me recognize myself for 5 minutes first. Let me start 
out with the National Park Second Century Commission which made 
several recommendations last year, as you know, to address the 
future needs of our National Parks. As a long time supporter of 
parks and now chairman of this subcommittee I want to make sure 
that we're doing all we can to prepare our National Parks and 
the Park Service for the upcoming centennial and hopefully a 
second century of success.
    If this committee were to pursue one new policy initiative 
to help the parks during this Congress what do you think it 
should be?
    Is it support for LWCF and land acquisition?
    Addressing the maintenance backlog?
    Bringing more Americans into the parks?
    I know those are all big missions and important questions, 
but I'd welcome your thoughts.
    Mr. Jarvis. That's a great question. There's quite an array 
to choose from. But from my perspective I think recognizing 
that the National Park Service plays an essential role in this 
country's public education system is front and center for me.
    The role we play in teaching American history. The 
opportunities that's before us with the sesquicentennial of the 
Civil War to remind, not only Americans that perhaps had 
ancestors that served in the Civil War, but new Americans of 
the challenges of war and how a country recovers from it. The 
lessons build within that.
    The National Parks are extraordinarily important in 
education. We're reaching about 4 percent of the public school 
kids in the country today. I'd like to see us grow that.
    I know the kids, their education capacity and their 
interest in our American history as well as the ecology of this 
country increases when they have access to parks. I think this 
was a core recommendation of the Second Century Commission. 
Think it's a huge opportunity for us.
    Senator Udall. Thank you for those insights and for your 
focus on that opportunity.
    Let me move to the American Recovery and Reinvestment Act. 
It provided $750 million for the National Park Service. As I 
recall it took longer to obligate those funds than had been 
originally anticipated. I know Senator Burr has asked some 
questions at committee hearings as well on this question.
    Could you give me a brief summary on whether all the ARRA 
funding was successfully spent and what the outcome has been in 
terms of benefits for the parks?
    Mr. Jarvis. It was an extraordinarily great investment in 
the National Park Service. The $750 million was received for 
the National Park Service. 100 percent of that $750 million is 
obligated. About 65 percent of it is expended.
    This was 829 projects across the country improving our 
physical plant facilities, visitor services, trails. What was 
great about it was that we had an inventory of needs. We were 
able to apply it fairly quickly to a broad array of projects.
    But I want to emphasize that 100 percent of that money has 
been obligated. That, of course, with any project you don't 
give them all the money the first day of the project began. So 
there's an expenditure process that goes through and we're at 
65 percent.
    Oh, yes, the other piece of this was the number of jobs 
that were created. The total is over 6,000.
    Senator Udall. Thank you for that explanation and update. I 
know you'll continue to categorize and summarize the results of 
all these projects as we move forward.
    Let me turn to the question of climbing fees. I've heard a 
number of complaints from the climbing community about 
significant new climbing related fees. It wouldn't surprise 
you. I know you're on top of everything that comes at the 
service.
    But the criticisms are not only that the new fees are 
excessive, but they're often established under your special use 
authority which doesn't require the level of public involvement 
that's required under your general fee authority. Would you 
provide some thoughts as to your response?
    Mr. Jarvis. I have recently met with the climbing community 
representatives to discuss this. Both of those points were 
raised. Specifically regarding Mount Rainier and Denali where 
that particular authority is used specifically to collect fees 
for climbing parties attempting that.
    There really was basically no particular concern about 
Mount Rainier. They felt that the public process had been 
pretty effective. They had been involved. The increase from $30 
to $43 was relatively nominal and affordable.
    The biggest concern was around Denali and the proposal to 
raise the fee to $500 from its current level of $200. We have 
not made a final decision on that. I think some of the concerns 
that were raised by the representatives of the climbing 
community were legitimate both in terms of process and in terms 
of end result. So we're still in consideration of how and what 
increases would be appropriate in the case of Denali.
    It has caused us to look across the service in the use of 
the specific authority and the way it's applied to particular 
user groups and specifically climbers. Part of it is to--the 
opportunity that that fund source, that fee authority, is that 
100 percent of that funding is retained at the park level. That 
has allowed parks specifically to increase its overall program 
of safety and rescue and professionalism of the organization.
    I know when I was the Superintendent of Mount Rainier that 
was one of our goals. It was very effective. We ultimately 
reduced the number of incidents on the mountain, loss of life 
as well as climbing rescues by professionalizing our rank and 
file climbers from this fee program.
    But there is a balance we have to strike. We're definitely 
looking into that.
    Senator Udall. Follow up question. I know other countries 
charge international climbers higher fees. Have you thought 
about that, particularly in regards to Denali? I, as you know, 
have climbed there on 2 occasions and there are quite a number 
of international climbers, but----
    Mr. Jarvis. We have talked about it. I would have to defer 
to our attorneys to whether or not we have the authority to 
single out other folks and charge them a higher fee. I'm not 
sure that we actually have that authority.
    Senator Udall. Thank you Director Jarvis. Let me recognize 
Senator Burr.
    Senator Burr. Thank you, Mr. Chairman.
    How's the Kid's Passport doing?
    Mr. Jarvis. That was something that we came up with a few 
years ago and in cooperation with the Eastern National. It 
seems to be popular. All those kinds of programs that we 
develop with--focus on kids is pretty popular.
    Senator Burr. I was instrumental in that with the Head of 
the Park Service at the time. My vision was to try to barter 
with somebody like Scholastic magazine. I would only tell you 
this. If we can figure out how to put the kid's passport in 
hands of every school age child, we will figure out the 
equation to your challenge which is how do we get children 
exposed to the parks.
    It sort of became a profit center of the parks. The only 
problem was you had to go to the park to actually get the 
passport. It's a chicken and egg story.
    You give the kid the passport. They're going to influence 
where their parents choose to go on vacation. So I throw that 
challenge out to you.
    Let me ask you. Secretary's Climate Change initiative. How 
many agencies of the Federal Government do work on climate 
change?
    Mr. Jarvis. I really am unsure of that. I know within the 
Department of Interior pretty much all of the bureaus have some 
aspect of climate change responsibility.
    Senator Burr. Have you ever stopped to wonder why we don't 
let one agency collect the data and disseminate the data to all 
the customers of which the Park Service is one verses to have 
our own effort to go out and collect data on climate change?
    Mr. Jarvis. In our case for the National Park Service, we 
actually do rely, heavily, on the other agencies, the big 
science agencies. No----
    Senator Burr. But where's all the cost for the program come 
from?
    Mr. Jarvis. I'm sorry?
    Senator Burr. Where does all the costs for the program come 
from?
    Mr. Jarvis. In our case one of the challenges we have with 
the climate change that the other agencies--they're all looking 
at, you know, at the issue at a very broad scale. What I need 
to know in order to manage parks in the National Park system 
that are subject to the effects of climate change, I need a 
very scaled down level of information. For instance, predicting 
fire incidents in the Sierras as a result of grasses moving 
into that environment.
    No one else is doing that work other than perhaps the 
Forest Service would be adjacent to us. So for us to manage, 
you know, I need to know if the big agencies are predicting 
that there's a sea level rise. I need to know which 
archeological sites will be affected by sea level rise so I can 
inventory those now.
    The only people that are going to do that scale kind of 
work is the National Park Service. That's where we're focusing 
our dollars.
    Senator Burr. In a tight budget year, and I think we're 
looking at that for the foreseeable future. You know there may 
be some ones that can't be filled. You know, the one thing that 
I think we've got to get used to is prioritization.
    Let me get into some of the budget items, if I can. The 
$138 million more for more than the 2010, 2011. Shouldn't the 
Park Service share in the reductions that just about every 
branch of the Federal Government isgoing to feel?
    Mr. Jarvis. We have identified a significant number of 
cuts.
    Senator Burr. Yes, but you've got $138 million increase on 
the top line. Is that fair?
    Mr. Jarvis. I think that when you're faced with tough 
economic times you absolutely you have to make some choices. I 
personally think that on the operational side of the National 
Park Service house that that's a good investment. That's a 4 to 
one investment.
    For every dollar that we get appropriated dollars that's $4 
to the economy. But what's really great about the Park Service 
is that money is a local economy level. That's the gateway 
communities in your State and in all the States across the 
country that result in tourism.
    We saw bulks in tourism this last year. In some parks we're 
setting records in terms of visitation because in part people 
were not going to Europe or they were doing stay-cations. They 
were doing shorter vacations. So they're going to National 
Parks.
    When they go to National Parks they expect to see rangers 
and have clean restrooms and----
    Senator Burr. As you see this surge up in visitors, common 
sense would tell me that you would put more toward the 
maintenance budget knowing that things are going to get used. 
In this particular case I'm curious. You've got an $81 million 
education in construction. I'm curious? Does that have an 
effect on the maintenance projects?
    Mr. Jarvis. The one advantage that we have in dealing with 
that particular issue and I would agree with you that there is 
a challenge there. But we did get a substantial investment 
through ARRA which allowed us to invest across the system with 
over 800 projects and improve the quality of the facilities. So 
in this particular budget year we were able to sort of strike 
that balance.
    Senator Burr. But you have a projected $9 billion 
maintenance backlog. Am I correct?
    Mr. Jarvis. Ten billion.
    Senator Burr. Ten billion.
    [Laughter.]
    Senator Burr. So 10 percent of that's been addressed and 
you're looking at rates of visitors going up. I mean, do we 
believe that there's going to be a $750 million genie coming in 
the future that begins to address the maintenance budget again?
    Mr. Jarvis. The maintenance backlog is a huge issue for us. 
We are dealing with old infrastructure that we have to invest 
in. Now that large number, the $10 billion can be broken down 
into critical systems which is a smaller number.
    Mr. Sheaffer. Roughly $3 billion.
    Mr. Jarvis. About $3 billion is critical systems. Those are 
the water systems, the waste water systems, the front line 
services. We've got a lot of things in the Park Service, a lot 
of facilities. Only a certain segment are real critical. We are 
focusing our annual appropriation which is somewhere in the 
$500 million a year of repair, rehap, line item construction 
and fees----
    Senator Burr. What you just described to me is 6 years 
worth of critical infrastructure needs that you currently have. 
Six years.
    Mr. Jarvis. Yes.
    Senator Burr. Visitor-ship going up. I'm not sure that the 
budget, as I look at it, is prioritized based upon where the 
greatest needs are right now. I just make that point to you.
    Let me ask you when the Park Service makes new land 
acquisition. Do you go through any type of process to determine 
what the potential maintenance cost of that new land 
acquisition is going to be?
    Mr. Jarvis. Yes, sir. We do.
    Senator Burr. Every acquisition we make?
    Mr. Jarvis. Yes, sir. Absolutely. If I can add something to 
that?
    Senator Burr. Sure.
    Mr. Jarvis. If there are facilities and that appear to be 
high maintenance we try to have them torn down before we add 
that land to the parks if they are non historic. We do not want 
to be adding to our inventory. So that is one of the standards 
that we've put in place is to remove things that will result in 
an increase in the maintenance backlog.
    Senator Burr. One last inventory question. Is the objective 
here to add more land to the total inventory or to piece 
together partials that make a more complete asset that we've 
got?
    Mr. Jarvis. It's the second. It's to fill in blanks inside 
of an existing boundary.
    Senator Burr. Let me just ask, given the vast acreage that 
we have under control why would we purchase partials that 
complete verses exchange pieces that are in our inventory for 
the parcels we're after?
    Mr. Jarvis. Within the National Park Service we don't 
really have, except in a few circumstances, the authority to do 
land exchange.
    Senator Burr. Do you want it?
    Mr. Jarvis. I think on a case by case basis. In some cases 
it does make sense, but if you're trying to buy an in holding 
inside of Rocky Mountain National Park you're not going to want 
to trade out another piece of Rocky Mountain National Park in 
order to achieve that. What you're trying to do is ultimately 
have a complete National Park.
    Senator Burr. How about if it's the choice between that's 
the only way to access that end piece or you don't get it?
    I hate to be walking you through a prioritization but this 
sense of unlimited funds has to stop. At some point Congress is 
going to demand that agencies stop coming up with 10, 12 years 
worth of backlog so once in a special occasion we can have this 
dump of money to take care of a serious, serious problem. I 
mean, with all due respect.
    Mr. Jarvis. Yes, sir.
    Senator Burr. It borders on mismanagement of this asset to 
suggest to me that we've got 6 years worth of critical 
infrastructure needs and those infrastructure needs are not in 
this year's budget. Now that may mean that the Secretary's 
Climate Change Initiative gets defunded for a year or it may 
mean that there's another aspect with the Park Service that we 
draw down. But I'm, as the ranking member of the committee, I'm 
having an increasingly difficult time trying to figure out if 
there's any level of prioritization that we go through to 
manage the assets other than just to spread them out and 
continue to add to the inventory of land which continues to add 
to the inventory of maintenance backlogs.
    So, I share that with you not to solicit a response, to 
share with you a frustration. My hope is that we will probably 
see much more review relative to the need for prioritization. 
Thank you.
    Senator Udall. Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    I'd like to focus, if I could, Mr. Jarvis, on some of the 
issues I see in the National Parks in Wyoming. You know, 
Wyoming is small businesses, communities that depend on winter 
use activities in Yellowstone National Park. You and I have had 
a chance to discuss Yellowstone in the past.
    I think we need to make sure that the Park Service makes it 
a priority to ensure the public has access to the Park. That 
snowmobile access is an essential part of winter use in the 
park. Certainly having some level of certainty in park policy 
is also essential.
    So I take a look at the time line that's established in the 
Park Service's winter use plan brochure. The draft 
environmental impact statement will be released to the public 
it says in February or March 2011, February/March 2011. Today 
is March 30.
    The draft EIS to me has not yet been released. I'm, you 
know, the existing winter use rule expire this year. So if the 
Park Service falls behind it's not going to have a rule in 
place which is a concern to people that I've talked to 
throughout Wyoming. Clearly you can imagine the consequences 
this has on small businesses, on communities in my State and in 
the communities around Yellowstone.
    So I'm wondering when will the draft EIS be released? Do 
you have it today for us or since it's kind of the end?
    Mr. Jarvis. I don't have a specific date. But let me tell 
you I have as much concern as you do about getting this done 
prior to the 2011 season. Give some assurances to the 
communities around this.
    We've been, as you know, we have my former Deputy Director, 
Dan Wenk, is now the Superintendent of Yellowstone and is out 
there with us at the top of his priorities to get this 
completed. So I do believe it will be released in April. But I 
don't have a specific date.
    Senator Barrasso. OK. So can I get your commitment to try 
to keep this on schedule?
    Mr. Jarvis. Yes, sir.
    Senator Barrasso. Thank you.
    Additional question about Yellowstone is we talk about 
certainty in Park Service policy being imperative as well, 
families, businesses plan 6 months, twelve months in advance 
for the upcoming year. So it's going to take time to transition 
to a new plan once that plan is out. Will operators function 
under the existing plan this coming winter as the park 
transitions to the new plan or what are your thoughts on how 
that all rolls out?
    Mr. Jarvis. My understanding and my expectation is that 
this new plan when we come out with the Winter Use Plan for 
2011 they will be operating under that plan.
    Senator Barrasso. Which is, I guess, kind of the reason I'm 
saying that the sooner we get that the better it's going to be.
    Mr. Jarvis. The sooner, the better.
    Senator Barrasso. The more able people are going to be able 
to plan because this is a time when they start planning ahead. 
At some point, if we don't have this in a timely manner, that 
we're going to need to try to find a better way to do it.
    Mr. Jarvis. Yes, sir.
    Senator Barrasso. Now I know that the Park Service has 
worked closely with my home State to reach the agreement for 
the exchange of State owned lands within the Grand Teton 
National Park. I know that you're very familiar with that 
situation. This is State owned land which is very valuable.
    The President's budget includes funding for the first step 
in a multiyear process of purchasing. The Park Service has 
ranked it about half way down its list of land acquisition 
priorities. I think 17 out of 34.
    So, you know, there's no Congressional earmark, so the 
Administration going to have full discretion in prioritizing 
this spending. So my question is the Park Service committed to 
the land exchange agreement or should Wyoming start considering 
other options?
    Mr. Jarvis. No, we're fully committed. That comes from the 
highest level. That I met in Wyoming with the Governor and 
we've made that full commitment that we're on board.
    Senator Barrasso. Thank you. Thank you, Mr. Chairman.
    Senator Udall. The ranking member has joined us of the full 
committee, Senator Murkowski?
    Senator Murkowski. Thank you, Mr. Chairman, ranking member.
    Mr. Jarvis, Mr. Sheaffer, thank you for being here this 
afternoon.
    Mr. Jarvis, I want to follow up on our incident from this 
summer. The infamous incident on the Yukon out in the Yukon 
Charley area with Mr. Jim Wilde and that very unfortunate 
incident that as I reminded you when we were meeting in my 
office for all the work that the Park Service does in our State 
it sometimes takes just one incident. In this case, one that 
turned out to be very high profile, very public and very 
unfortunate, not only for Mr. Wilde, but I think for the image 
of the Park Service.
    We had talked about, you know, how we move forward. That 
matter is, I still understand, before the courts coming up.
    Mr. Jarvis. Correct.
    Senator Murkowski. I recognize that we're limited in our 
ability to talk specifically about that because that is a case 
that will be taken up in the courts. But what you and I had 
discussed was whether or not the effort is underway to improve 
the relationship or the perspective of Alaskans toward the 
National Park Service, particularly out in this region. We had 
talked about perhaps some additional ANILCA training for Park 
Service law enforcement officers that are operating in that 
area. Perhaps some level of sensitivity training.
    Can you give me any update in terms of what we might expect 
for this upcoming season?
    Mr. Jarvis. Thank you, Senator. I have followed up in quite 
a bit of detail on that incident and the needs for rebuilding 
relationships with the people of Alaska. In March the staff 
participated in a Potlatch and community meeting in Eagle. 
Actually in Eagle Village.
    As a follow up we have hired a liaison into the 
organization from the community to really assist parks in 
understanding how to build and maintain relationships.
    Senator Murkowski. Is this a liaison out in Eagle then or?
    Mr. Jarvis. No, they are on our Anchorage staff.
    Senator Murkowski. OK.
    Mr. Jarvis. So, but there is someone specifically in Eagle 
that has volunteered to work directly with the park. I don't 
remember his name right now. But he's a local guy that has made 
specific--in his words he said, ``I don't object to what you're 
doing. I object to how you're doing it and I can help you.''
    In discussions I've had with the Regional Director, Sue 
Masica, up there about that. They were going to take advantage 
of that opportunity to engage directly with training with the 
employees. To ensure that, you know, these kinds of incidents 
really don't happen.
    Senator Murkowski. Do you know if Sue Masica has been up to 
either the Eagle or the Circle area to visit with the local 
folks up there?
    Mr. Jarvis. I do not think she's been up there yet. But I 
know she is planning it. There is a meeting planned for April 
the 8th in Eagle. Then some similar ones in other places like 
Tok and Circle and other parts in sort of that northern tier.
    So I do have a commitment from Sue to get out there. She 
was scheduled to go up there and I think they were weathered 
out recently. So they----
    Senator Murkowski. I think it would be critically 
important, again, in this relationship that we have that right 
now is very, very tenuous.
    Mr. Jarvis. Yes.
    Senator Murkowski. I think the message from the Park 
Service needs to be one that is a genuine outreach and not just 
based on one incident, but a continuing outreach and a 
continuing collaboration. I would certainly encourage that. I 
know it's going to be uncomfortable for a while. But the only 
way to get past this is to really be working at it.
    Right now the local people do not feel that the Park 
Service is engaging with them in a manner that is anything 
close to being described as neighborly.
    Mr. Jarvis. I understand.
    Senator Murkowski. So we need to get around this.
    Let me ask about the, kind of, the source of this issue 
with Mr. Wilde. This was when his boat was attempted to be 
boarded of the middle of the Yukon River. That the stated 
purpose of approaching boats in the Yukon is to conduct the 
boater safety checks also the checking for the State of Alaska 
boat registrations.
    The questions that I have for you are two-fold. The 
checking for the State of Alaska registration is one that 
typically the State of Alaska would do. Did the State give you 
the authority to enforce the boater registration requirements?
    Then similarly the Coast Guard as well because under the 
Park Service jurisdiction you've got, as I understand it, you 
adopt all the applicable laws and regs of the Coast Guard. But 
does the Park Service have either that authority that is 
conferred to them either by the Coast Guard or by the State 
when it comes to checking for boating registration?
    Mr. Jarvis. The legal interpretation that we have and this 
of course is being challenged in this particular case and was 
the assertion in the first round of the case that the Park 
Service did not have jurisdiction. The legal foundation is our 
ability to assimilate other laws and enforce them in areas 
within boundaries of the National Parks. In Yukon Charley, in 
this case, the Yukon River is within the boundaries.
    Our attorneys believe strongly that the National Park 
Service has the authority to enforce these both Federal Coast 
Guard regulations and State regulations on those waters without 
having a granting of that from those other agencies. Those are 
assimilated regulations that are promulgated already as 
National Park Service regulations. So we're basically enforcing 
our own regulations that they are assimilated from both State 
and in this case, Coast Guard.
    Senator Murkowski. I guess the question would be most 
people when you think about the National Park Service and the 
mission that you have it's not to be the Coast Guard. It's not 
to be the State of Alaska. It is to operate, to build, maintain 
our parks. It has nothing to do with boating safety or boating 
licensing registrations.
    The concern that we're facing in Alaska right now is the 
actions by the Park Service are being viewed as an over reach, 
an over reach of your agency into the authority of others. That 
the methods that were used, the tactics that were used on this 
one individual those were unfortunate in and of themselves. But 
I think it speaks to a broader concern and that is viewed as 
the over reach.
    Again I understand that much of this will be the subject of 
the legal proceedings that are underway. But I think it is 
important to have some kind of an understanding that the 
confines within which the Park Service operates will be 
respected and that you will not be the law enforcement for all 
that goes on within the Yukon Charley region. I think that's 
what you are facing right now.
    Again, I don't think that puts you in good stead with the 
Alaskans in the region there.
    Mr. Jarvis. We're having discussions around that, about, at 
least in the sense of priority, in terms of what the Park Law 
Enforcement staff are focused on.
    Senator Murkowski. Mr. Chairman, I have some other 
questions, but I'll submit them for the record. I appreciate 
the time. Thank you, Mr. Jarvis.
    Mr. Jarvis. Thank you, Senator.
    Senator Udall. Thank you, Senator Murkowski.
    Let me recognize Senator Coons.
    Senator Coons. Thank you, Senator Udall. Thank you, 
Director for your appearance before the subcommittee.
    I just spent last weekend in one of my favorite National 
Parks, the St. John, U.S. Virgin Islands Park. A place I've 
camped many times over 30 years and was hiking up and down 
trails with my children and enjoying, in particular the 
underwater trail at Cinnamon Bay. I'm thinking to myself, my 
gosh, I may actually get a chance to convey to the Director of 
the National Park Service.
    This is an outstanding jewel in the National Park System. 
One I hope you will attend to with some enthusiasm given I 
think its unique status.
    Unfortunately the thing I wanted to raise today was, as 
Delaware's Junior Senator, I'm from the only State in the 
country, as I'm sure you know, without a National Park. I 
simply wanted to encourage you to continue to work diligently 
with our Senior Senator. I'm a co-sponsor on his bill that 
would establish the First State National Historical Park. He 
has laid out a vision in collaboration with a broad range of 
our community that would celebrate our early Dutch, Swedish and 
English settlement history and our role in being the first 
State to ratify the Constitution.
    Let me focus my 2 questions today, if I could, in addition 
to 2 areas in your budget.
    First, I was really pleased to see $10 million included for 
the Rivers, Trails and Conservation Assistance Program within 
the NPS. There are several projects in my home State that have 
been supported by that. I think it's critical to continue to 
encourage outdoor recreation given understandable concerns 
about health and obesity connecting with the natural world, 
strengthening communities.
    Can you tell me about your vision for the RTCA and how it 
will play a supportive role in the America's Great Outdoors 
Initiative, please?
    Mr. Jarvis. Thank you, Senator. I really appreciate that 
question because I'm a huge fan of RTCA. It's a program that 
frankly has been unrecognized for the values that it provides 
to communities across this country. That is why I requested a 
little over a million dollar increase to the RTCA program.
    There are about 70 employees service wide stationed at 
communities not necessarily associated with units of the 
National Park System but there to assist communities organizing 
around protection of particularly rivers and river fronts, but 
trails as well. I think that when we went out and listened to 
the American public in the 51 listening sessions with America's 
Great Outdoors. We heard over and over again from communities 
about how much they valued our RTCA employees and the work that 
they do.
    As we move down this path of implementation of America's 
Great Outdoors report, RTCA is going to be an essential 
component for us organizing communities and seeking 
opportunities to bring all the disparate pieces of the Federal 
Government to play in providing outdoor recreation 
opportunities, blue ways, access to rivers, green space and 
places for, you know, kids to move outside across this country. 
So I have a vision that RTCA will be highlighted as a major 
component of our America's Great Outdoors Initiative.
    Senator Coons. I'd like to continue to work in 
collaboration with you on that. In my former role as a county 
executive I did a lot of working with our local parks community 
to build and develop green ways and trails in our community. We 
have a great, I think, opportunity in Delaware where there's 
several thousand acres, about 9,000 acres of Federal land on 
either side of the C and D canal. Where there is an undeveloped 
trail way on both sides.
    I'm looking to find ways to support former Congressman Mike 
Castle's long work with the Army Corps on trying to raise the 
standard and quality and accessibility of that. To your point 
is both a green way and a blue way and something that connects 
us to a great, untapped, local recreation resource. In your 
view would RTCA funds potentially be accessible to help with 
further accessing or developing the C and D canal green way 
project?
    Mr. Jarvis. RTCA can certainly be a participant in 
developing the planning and helping to identify fund sources. 
But RTCA really doesn't have any sort of bricks and mortar or 
trail funds. Unfortunately because that particular route exists 
on Federal land which is Army Corps of Engineers if I 
understand it, it's ineligible for the State side of LWCF. The 
Corps is not an eligible agency for the Federal side of LWCF.
    So it's a little bit of a conundrum in terms of actually 
how to get that done.
    Senator Coons. That is the longstanding challenge. I will 
in passing also note my enthusiasm for the LWCF funding. It's 
funded more than 200 projects in Delaware, many of them in the 
county where I've previously served.
    So if neither the Army Corps, as an entity nor Federal land 
are eligible. Any suggestions or comments about how we might 
proceed to find some resources that would help with further 
development of this resource for Delaware?
    Mr. Jarvis. You know, the Army Corps of Engineers in of 
itself, is an agency that has a fair amount of money.
    [Laughter.]
    Senator Coons. Indeed they are.
    Mr. Jarvis. Now whether or not they're willing to use it 
for that. They were a participant in America's Great Outdoors. 
They are a major recreation provider in this country. They 
collect a lot of fees.
    I think that our RTCA individuals that are working with you 
up there are very creative folks. I think that with them we 
could perhaps find some way to provide some funding for that.
    Senator Coons. Thank you, Director. I just wanted to renew 
my support for Senator Corker's good work over many years. If 
there's anything I could be doing to be constructive and 
supportive in both pursuing the C and D canal green way and 
Delaware's National Park, I'd love to. But I'll also tell you 
that the network of National Parks out west to which we've 
taken our young children several times in the last few years in 
Wyoming and elsewhere, very impressive and pleased with the 
work that you and your staff do.
    So thank you very much for your testimony today.
    Senator Udall. Thank you, Senator Coons. We'll start a 
second round.
    If I might, Director, return to the question I asked you at 
the end of the last round about international climbers perhaps 
being charged larger fees. Would you, for the record, be 
willing to let us know what your attorneys determine?
    Mr. Jarvis. Yes. Absolutely. We will look into that. We'll 
get back to you.
    Senator Udall. Thank you for that.
    Before I had the great privilege of serving in the Congress 
I was an outdoor educator and a mountain guide with the 
Colorado Outward Bound School. I just am passionate about 
getting Americans outside and encouraging them to enjoy our 
public lands. It's one of the reasons that Senator Risch and I 
started the Senate Outdoor Recreation Caucus.
    Can you talk about your role in the America's Great 
Outdoors initiative, especially with respect to getting more of 
our children outside and physically involved and can you also 
tell me what the Park Service is doing to engage young people 
from ethnically and culturally diverse backgrounds?
    Mr. Jarvis. Thank you for that question. Again those are 
very near and dear to my heart. The America's Great Outdoors 
report itself, as you would kind of expect, is a conglomerate 
of a variety of comments that we received around the country, 
about 100,000 comments, 51 listening sessions of which 21 were 
with young people, specifically with youth. You sort of had to 
be under 24 in order to be in the room. We had those actually 
facilitated and run by young people.
    They provided a wide array of ideas of how to reconnect 
young people to the outdoors. They have both optimism and 
concern about the disconnect we have today. So in terms of the 
AGO report at the National Park Service, it's my intent to take 
the comments that were specific to the National Park Service, 
such as investing in RTCA or having an urban parks focus for a 
while to really use urban parks as a threshold experience to 
use our State side of land and water conservation fund more 
strategically to provide access to rivers for blue ways and 
river trails and canoe routes. To provide linkages in trail 
systems, bike paths, horse trails, those kinds of things where 
they're missing, all of these things to sort of unify a better 
connection for the American public.
    We are developing an action plan from the AGO report 
specific to the National Park Service a priority list of 
actions that we can take over the next couple, next 5 years, 
basically up to 2016. We are focused on developing an action 
plan around that. With a big component of it focused on youth. 
We feel that youth employment, youth engagement, you know, 
youth involvement is a major component of that.
    So even if we don't get any new money. I mean, if we've got 
to think about that in terms of our economy. There are things 
that specifically the National Park Service can do within our 
existing priorities and funds.
    Let me talk a little bit about Let's Move Outside. The 
First Lady's initiative Let's Move which had principally a 
focus on physical education and nutrition, we introduced the 
concept of Let's Move Outside which is really about using the 
outdoors to exercise and to improve young people's health, 
their education and their sense of themselves and their sense 
of potential future employment as well. So this is a great 
opportunity for us.
    To use programs like our Junior Ranger programs as a Let's 
Move component. So kids that are participating in some of our 
Junior Ranger programs now have physical exercise components to 
it that are branded as part of the Let's Move initiative as 
well.
    We also are piloting a series of very specific youth 
initiatives that are targeted and focused on young people of 
color. We feel that this is probably the greatest opportunity 
to build a whole new constituency for the National Parks, 
besides all the secondary benefits it is for those young people 
as well.
    So within our 2012 budget a number of the base increases 
that we have requested are specifically designed toward youth 
employment and youth engagement in urban environments such as 
at Fort McHenry in Baltimore to focus on reaching out to kids 
there, getting them engaged in the park and employed as well.
    Senator Udall. I look forward to seeing this unfold and 
working with you.
    Let me turn to LWCF and some funding cuts. In the most 
recent CR, continuing resolution, there were a number of 
funding cuts to programs in the Department of Interior 
including $17 million in cuts for Park Service land 
acquisition. My understanding is those were cuts representing 
Congressional earmarks and were not in the President's budget.
    As you know there are ongoing discussions about the extent 
of the additional cuts in the next CR. What would be the effect 
on the Park Service if additional funding cuts were made to 
your land acquisition budget?
    Mr. Jarvis. Are you speaking of the $17 million or the 
larger cuts proposed in----
    Senator Udall. I was using the $17 million as a lead in 
to----
    Mr. Jarvis. OK.
    Senator Udall. Additional cuts to be identified.
    Mr. Jarvis. OK.
    Senator Udall. What the effect would be on----
    Mr. Jarvis. As you know, for the National Park Service Land 
and Water Conservation Fund is really in 2 categories, one 
Federal side and one State side. We administer the State side 
program. Let me speak to the State side first.
    The State side of LWCF has been a very essential program in 
many cash strapped States to provide green space and provide 
improvements to parks in over 40,000 properties across this 
country. You know, we go to National Parks on the weekend. But 
where do you go after dinner are these small communities, 
State, regional and city parks. That's what the State side of 
LWCF really funds. So any cuts to that would significantly 
reduce the opportunity to provide those local experiences for 
young people.
    On the Federal side, you know, we have a ranked priority 
list in terms of land acquisition and cuts to that ultimately 
reduce the total number of properties that we would be 
acquiring. Most of these or all of these are in holdings such 
as the one that Senator Barrasso pointed out. But that where 
there are properties inside park boundaries that are critical 
to park operations and resource protection. We would just 
ultimately have to reduce that.
    Senator Udall. Thank you.
    Senator Burr. Mr. Director, if we--if those cuts came from 
the central office in Washington what would be the net effect 
on the experience somebody might have at a National Park around 
the country?
    Mr. Jarvis. The central office provides a pretty critical 
role, in my view. We answer a lot of questions from the 
American public. Provide a lot of great services out of the 
central office as well.
    Senator Burr. Do you think it could be cut and not have a 
negative impact on one's experience at the National Parks?
    Mr. Jarvis. I'm not exactly sure how to answer that.
    [Laughter.]
    Mr. Jarvis. I don't even know what the central office 
budget entails.
    Mr. Sheaffer. There's a number of centrally performed 
functions like for example, bill paying by the Central 
Accounting Office and financial management that's done out of a 
central office. That would cripple the parks if that didn't 
continue. So and the Park Service has gone through a number of 
internal reviews over a period of 20 years to reduce the 
central offices. I'd put the size relative to the field 
operation up against almost any organization as to being 
relative to remain.
    Senator Burr. I'm just trying to explore where Senator 
Udall was going which is the choice he presented you was a very 
specific choice. I would suggest to you the choice, if there 
are budget cuts that have to happen, should not leave any part 
of the National Park Service untouched. I would think that if 
you're focused and the mission is to make sure that the 
experience at the National Parks is the best possible for its 
visitors. The first place you would look at what doesn't 
contribute on the daily basis to the actual natural park and 
visitors.
    So I would think we wouldn't cut payroll. But I would think 
that there are areas of the central office that we could 
probably find that we might----
    Mr. Sheaffer. There are cuts to the central office in here. 
There's $47 million worth of efficiency cuts that are here some 
of which will affect the central office.
    Senator Burr. Any of those in personnel or was there 
actually a FTE?
    Mr. Sheaffer. No, they're not intended to hurt personnel at 
any level. They are intended to look at efficiencies and IT and 
purchase of supplies.
    Senator Burr. Sort of like waste, fraud and abuse. We use 
that frequently up here.
    Mr. Sheaffer. Yes, sir. Yes, sir. So we would----
    Senator Burr. We've sold that about 3 or 4 times in the 
last couple years.
    Let me ask you as it relates to the line item construction 
category. That seems to be where a majority of the construction 
reductions were. How would you counsel Congress about our 
ability to keep track of where and how that money is being used 
without the line item construction listing?
    Mr. Jarvis. We can, at any time, come up and provide you 
detailed information about the program both in terms of current 
as well as out year planning. I'll tell you where my head is in 
terms of construction in the service right now. We are in the 
process of re-evaluating a long laundry list of so-called needs 
in the National Park Service for new visitor centers and new 
facilities that really are probably not justified.
    Because what we're seeing a trend in park visitation where 
the public are no longer going to the visitor centers in the 
same numbers that are actually going to parks. Many of them are 
downloading the information onto their iPhone before they even 
show up. Then once they get there if they've got wireless they 
can get even more information.
    So it's causing us to rethink this kind of bricks and 
mortar investment that we've been making or are in the queue in 
some cases. To say maybe this is not where we need to be making 
these investments. So in part we're reassessing that entire 
program. We'd be glad to come up and talk to you about that in 
detail.
    Senator Burr. Delighted to hear more about that.
    Let me ask you as it relates to the National Heritage 
areas. I think the Administration has shared with us concerns 
about the future and the need for some stated criteria. When 
might we expect the Park Service to submit some type of 
legislative proposal that sets up the criteria for evaluations 
of potentially new qualified National Heritage facilities?
    Mr. Jarvis. Thank you for that question. That's a great 
question. We have drafted legislation for that and have 
submitted it to the Office of Management and Budget which must 
clear it first before it can come to Congress.
    But we do believe that some criteria, some process, some 
planning and some assurances that there is an organization that 
can carry out the goals and objectives of a Heritage area is a 
necessary component to really having a sustainable long term 
Heritage Area program.
    Senator Burr. I certainly agree with you. Both urge OMB to 
get that out as quickly as they can. That's not always the 
fastest process, as you know.
    I thank you, Mr. Director and thank the Chair.
    Mr. Jarvis. Thank you.
    Senator Udall. Director Jarvis, let me follow up on Senator 
Burr's question about the National Heritage area. I want to 
turn to the Preserve America Grants program which is if not a 
sibling certainly a close cousin to the National Heritage area 
concept. I know you've proposed to eliminate funding for that 
Preserve America Grants program.
    Can you tell us what your thinking is as to how you protect 
nationally significant cultural and historic properties that 
would no longer be covered by the program?
    Mr. Jarvis. In these times you have to find something to 
cut. When we looked at the actual production on the ground of, 
you know, real protection of these critical cultural resources, 
the Save America's Treasures program was actually having more 
direct effect than the Preserve America program. So in terms of 
rank priority, in my mind, Save America's Treasures was 
actually having a better effect than Preserve America.
    Preserve America was more of a recognition program than a 
bricks and mortar program. We have processes for recognition of 
critical cultural resources through the National Register of 
the National Historic Landmarks Program as well. I think that, 
you know, it's a part and parcel to the Heritage Area program 
but I think if we can figure out a way to establish specific 
criteria and goals and objectives in the Heritage Area program, 
I think it will achieve pretty much the same objective that it 
was originally written for Preserve America.
    We did request a fiscal year 2012 increase in the historic 
preservation fund of $6.5 million. So that was an area that we 
felt was an appropriate focus for the boost in the HPF. That 
would be money that we then could work through the SHIPPOS to 
do that kind of work.
    Senator Udall. I have to tell you I really appreciate the 
open minded approach your team has brought to looking at these 
tough fiscal year constraints we face. This hasn't been easy, I 
know. But I want to make sure you know that I'm well aware of 
the way in which you've gone about this.
    If I might, let me return to the centennial that we're 
approaching and I think that has us all excited. As you know 
the Second Century Commission made several recommendations to 
address the future needs of our parks. One recommendation was 
that you prepare a new National Park plan since the last one 
was written in, I think, 1972.
    Mr. Jarvis. In 1972.
    Senator Udall. Do you have any thoughts on that proposal?
    Mr. Jarvis. The Second Century Commission specifically 
recommended that there be a National Park System plan 
developed. As you know our specific authority to develop that 
plan was removed in the mid 1990s. I feel that in order to 
guide the growth of the National Park System there needs to be 
a plan.
    The growth of the system now tends to be much more random. 
It puts us in a position of not really being strategic in the 
design of the National Park System into the future. If we are, 
which I believe we are, tasked with being the representative 
institution in this country that represents the best of our 
natural resource, our natural resources of this country and the 
American tapestry of history than we need to strategically 
focus on where we're going to invest in that.
    There are missing pieces. There are missing themes in this 
country. For instance we've had a strong discussion with the 
Secretary Salazar about if you looked at the Park Service's 
current inventory of Hispanic history. It would appear that all 
Hispanic history ended about 1835-1865. There's nothing 
happened since then related to the Latino and Hispanic culture 
in this country. We have no parks that celebrate anything since 
that period.
    So there are missing parts. The way to get to that, 
frankly, is to develop a National Park System plan. That was 
why it was a core recommendation of the Second Century 
Commission.
    Senator Udall. I look forward to working with you as we 
move forward. It may seem like it's a few years away. But the 
centennial is truly bearing down on us.
    I know I've had conversations with the ranking member as 
well. Clearly his passion for the Park Service and the Park 
System is well established. So let's carve some additional time 
to work together.
    I think at this point if there are no further questions for 
today, let me thank you, Director Jarvis, not just for your 
testimony but for your service and for your wide ranging grasp 
of the opportunities that the Park Service present to us, 
America's best idea's in your good hands.
    I know some members of the committee may submit additional 
questions in writing. If so, we may ask you to submit answers 
for the record. I know you're no stranger to that, those kinds 
of requests. So in that spirit we'll keep the hearing record 
open for 2 weeks to receive any additional comments.
    Senator Udall. With that the subcommittee is adjourned.
    [Whereupon, at 3:41 p.m., the hearing was adjourned.]


                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

    [Responses to the following questions were not received at 
the time the hearing went to press:]

        Questions for Jonathan B. Jarvis From Senator Mark Udall

    Question 1. As you know, the Presidents' recent Executive Order 
13563 instructs government agencies to review existing regulations and 
identify any that are duplicative or unduly burdensome. Does NPS 
consider the regulation of mountain biking in the national parks, which 
necessitates the Special Regulations process, to be unduly burdensome 
and would this regulation be eligible for review under the President's 
Executive Order?
    Question 2. I know that some other countries assess higher climbing 
fees for foreign visitors. Has the Park Service ever considered 
charging international climbers a higher climbing fee? Does the Park 
Service have this authority?

         Questions for Jonathan B. Jarvis From Senator Landrieu

    Question 1. Last year, I requested support for a $2 million LWCF 
project at Jean Lafitte National Historical Park and Preserve. The 
acquisition from a willing seller this year would have allowed for 
preservation of an important historical and ecological site and the 
restoration of marshland on the property to help absorb storm surges 
and combat flooding and subsidence. Acquiring this land would also link 
the state's greater coastal protection and diversion building effort. I 
am disappointed that your National Park Service (NPS) request for FY 
2012 does not include this important project. What is NPS' long-term 
plan for funding the many projects like Jean Lafitte that are 
beneficial for recreation, historical preservation, tourism and in 
cases such as this, coastal restoration?
    Question 2. During these fiscally constrained times, I know 
authorizations for National Park studies are going to have a hard time 
making it through the legislative process and to become signed into law 
by the President. However, there are several sites and areas that are 
nationally significant that should become part of our National Park 
Service. Fort Jackson and Fort St. Phillip in Plaquemines Parish are 
two such sites. These forts have a significant place in American 
history and this country runs this risk of losing these sites if they 
are not permanently protected. As such, has the National Park Service 
explored alternative sources of funding for National Park studies to 
determine whether a site or location is suitable for admission into the 
National Park Service? Would the Park Service be willing to accept 
private compensation, rather than Federal appropriations, for 
conducting a congressionally authorized study?
    Question 3. Can you tell me how many National Park studies are 
currently pending before the National Park Service? And when do you 
expect to be completed with each of those studies?

        Questions for Jonathan B. Jarvis From Senator Murkowski

    Question 1. Since the ``Jim Wilde incident,'' has the National Park 
Service (``NPS'') implemented additional ANILCA training or sensitivity 
training for Park Service law enforcement officers operating in rural 
Alaska for the upcoming summer season?
    Question 2. Park Service Rangers have only conducted boater safety 
stops for three years now. Why was this policy implemented?
    Question 3. Did either of the Law Enforcement Rangers involved in 
the Jim Wilde incident have a criminal background? Does the NPS hire 
employees before a background check is complete?
    Question 4. Are there any current plans to station a law 
enforcement office in Eagle, Alaska full time to improve interaction 
with local residents?
    Question 5. Is NPS currently planning any hunting closures this 
year in any of Alaska's National Preserves? If so, on what grounds does 
the National Park Service feel that it is necessary to re-implement 
these hunting closures?
    Question 6. What is the status of the EA for the Falls Creek Hydro 
project? When can we expect the Park Service to connect to the Falls 
Creek Hydro facility? What can Congress do to help facilitate this 
process?
    Question 7. Will NPS issue guidance to the Alaska Region to 
eliminate ``less is better'' criteria from future concession 
prospectuses for hunting guide area permits?
    Question 8. Is NPS conducting wilderness reviews in Alaska? If so, 
how does that comply with ANILCA? Section 1326 of ANILCA states, ``No 
further studies of Federal lands in the State of Alaska for the single 
purpose of considering the establishment of a conservation system unit 
[including designated wilderness areas], national recreation area, 
national conservation area, or for related or similar purposes shall be 
conducted unless authorized by this Act or further Act of Congress.''
    Question 9. The State of Alaska has long sought completion of The 
South Denali Visitor Center. Although NPS Alaska and along Denali 
Superintendent Paul Anderson support the project greatly, there does 
not seem to be any support from the National Park Service in DC. Why is 
the South Denali Visitor Center not a priority for the National Park 
Service, and what can the Committee do to ensure that this project 
receives funding in the near future?
    Question 10. Why is the National Park Service updating its oil and 
gas regulations at this time? Is this a necessary expenditure of time 
and resources? Does NPS foresee this hindering any oil and gas 
production on private lands within National Park Units in the future? 
Is it possible for Alaska's National Parks to be exempted from this 
review, since many of the National Park Units in Alaska operate under 
unique laws and regulations?
    Question 11. In light of the numerous constituent complaints 
received by my office from Air Transporters who work in and around the 
Noatak National Preserve, when does the National Park Service plan to 
revaluate the authorizations for air transport companies to provide 
transport services in Noatak National Preserve to help improve the 
current system? How was the original number of allocations determined?
    Question 12. What can the NPS do to accelerate the restoration 
process of the Kennecott Mine? Please provide a timeline for the 
project's completion.

          Question for Jonathan B. Jarvis From Senator Portman

    Question 1. I appreciate and share your strong interest protecting 
our national parks and other public lands. I am particularly interested 
in seeing the completion of the Blossom land acquisition, which would 
protect hundreds of acres of land in the heart of the Cuyahoga Valley 
National Park, America's 6th most-visited national park. In the context 
of the funding constraints we face: Can you tell us how you plan to use 
the Land & Water Conservation Fund to take care of these sorts of 
opportunities before they are lost?


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
